No.

IN THE SUPREME COURT OF THE UNITED STATES OF AMERICA
s^pre

^-^2021

COHN PATRICK BLACKMON,
Petitioner-Appellant,

°F7>ve

v.
JEFFREY UTTECHT, SUPERINTENDENT,
Respondent-Appellee.

On Petition for This WRIT of Certiorari to the United States
COURT of Appeals for the Ninth Circuit Case No. 19-35883
U.S. Western District COURT of WASHINGTON, Case No. 2 :16-cv-01592-R5L

PETITIONER'S MOTION TO PROCEED IN FORMA PAUPERIS, S.CT. RULE 39

RECEIVED
AUG 2 4 2021

John P. Blackmon
Petitioner-Appellant, PRO SE

OFFICE OF THE CLERK
SUPREME COURT, U S.

John P. Blackmon, # 367781
Coyote Ridge Corrections Center
P.O. Box 769

GA-10-2U

Connall, WA. 99326-0769

oi«p

IN THE SUPREME COURT OF THE UNITED STATES

JOHN P. BLACKMON,

NINTH Circuit COA Cass No.#19-35883

Petitioner-Appellant,
U.S.S.CT.CASE No.#
MOTION AND DECLARATION
PURSUANT TO S.CT. RULE 39, MOTION
3EFFREY UTTECHT, SUPERINTENDENT,
Respondent-Appellee.

FOR LEAVE TO PROCEED IN FORMA
PAUPERIS, CITING 18 USC § 30Q6A
CLERK ACTION (FILE/NOTE/DOCKET)

COMES NOW, Cohn P. Blackmon, Petitioner herein, establishing motion
for leave of This COURT to proceed in forma pauperis, as mas sought and
GRANTED in the WESTERN DISTRICT COURT OF WASHINGTON, Seattle, D.C. Case
No.#2:16-cv-01592-RSL, District COURT herein, and extended through and to
the above NINTH CIRCUIT COURT OF APPEALS, Case No.#19-35883, Circuit COURT
herein, pursuant to ("whether leave to proceed in forma pauperis was
sought in any other court and, if so, whether leave was granted") of S.CT.
Rule 39(1.) Optional, See APPX-A; Pg.017-027,028,031-042
The samB COURTS also GRANTING appointed Federal Public Defender and
Counsel for this [I]ndtgent Petitioner under Law provision 18 U.S.C. §
3006A, pursuant to ("If the court below appointed counsel for the indigent
party, no affidavit or declaration is required, but the motion shall cite
the provision of law under which counsel was appointed") of S.CT. Rule
39(1.) Optional, See APPX-A, Pg.043-049

91 •

See District COURT, Case No. 2:16-cv-Q1592-RSL, Docket Entry 12, and
citing WEVGARDT v. LOOK, 716 F.2d 952;

NOTE: This Petitioner, daemad permanently disabled in a Washington State
COURT, by Administrative Law Judge, retroactive to mid-2003 timeframe,
receiving 100% SSDI benefit for self and dependants up to Duly 15, 2013
incarceration, was however qualified [I]ndigent initially in Snohomish
County Superior COURT Criminal Case No.#12-1-00219-8, in a Resentencing
proceeding [n]ot until January 06, 2016, on the timely verbal notice and
filing Notice of Appeal to the Resentencing, Washington State COURT of
Appeals, Division One, proceeded with appointment of counsel.
This Petitioner currently domiciled and an inmate confined in the
Coyote Ridge Corrections Center, an institution, as addressed on APPX-B, AA
pg02, and currently [n]ot represented by counsel, pursuant to ("an inmate
confined in an institution and is not represented by counsel, in which
case the original, alone suffices") of S.CT. Rule 39(2.); See APPX-B, AA
MOTION TO WITHDRAW AS COUNSEL FOR APPELLANT JOHN BLACKMON PURSUANT TO
CIRCUIT RULE 4-1(b);Sbb WRIT, APPX-AA,Pg.001-003; 19-35883:13of275
This Petitioner affirms and declares under the penalty of perjury
under the laws of the State of Washington that the foregoing is true and
correct pursuant to RCW 9A.72.085, pursuant to 28 USC 1746 Dickerson v.
Wainwright, 626 F,2d 1184(1980).

DATED, PROCLAIMED, and FILED pursuant rule, This 30th day of July, 2021.

John P. Blackmon, Petitioner-Appellant, PRO SE
Petitioner Explicit Invokes ALL UCC / USC Protections

03

Case 2:16-cv-01592-RSL Document 15 Filed 12/12/16 Page lot3

DISTRICT JUDGE ROBERT S. LASNIK
MAGISTRATE JUDGE JAMES P. DONOHUE

1
2
3
4
5

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6
7

8
9

JOHN PATRICK BLACKMON,

)

Petitioner,

10
v.

11
12

JEFFERY UTTECHT,
Respondent.

13
14

) No. C16-1592-RSL-JPD
)
)
)
)

NOTICE THAT THE FEDERAL
PUBLIC DEFENDER WILL ACCEPT
APPOINTMENT AS COUNSEL FOR
THE PETITIONER

)
)
)

The Federal Public Defender for the Western District of Washington will accept

15

appointment in this case. Undersigned counsel has spoken with Mr. Blackmon, and he

16

desires to have the Federal Public Defender represent him. In support of this notice and

17

request, counsel states the following:

18

1.

On November 21, 2016, the Court referred this case to the Federal Public

19

Defender for review. After reviewing presently available materials, the Federal Public

20

Defender will accept appointment on behalf of Mr. Blackmon.

21

2.

I have spoken with Mr. Blackmon by telephone, and he has confirmed

22

that he desires to have counsel appointed. He would like the Federal Public Defender

23

appointed.

24

3.

Mr. Blackmon previously filed a motion to appoint counsel, Dkt. 5, and a

25

motion to reconsider an initial order by this Court denying that motion, Dkt. 13. He has

26

filed a declaration and application to proceed in forma pauperis in a federal habeas
NOTICE THAT THE FEDERAL
PUBLIC DEFENDER WILL ACCEPT
APPOINTMENT AS COUNSEL
(John Patrick Blackmon, C16-1592-RSL-JPD) -1

FEDERAL PUBLIC DEFENDER
1601 Fifth Avenue, Suite 700
Seattle, Washington 98101
(206) 553-1100

Case 2:16-cv-01592-RSL Document 15 Filed 12/12/16 Page 2 of 3

1

corpus action, along with a statement of finances from the Coyote Ridge Correctional

2

Center. See Dkts. 8 and 8-1. These documents establish his financial eligibility for

3

appointment of counsel. However, he has subsequently paid the filing fee so no order

4

granting the motion to proceed in forma pauperis is necessary at this time, except

5

insofar as it is necessary to make the appointment of counsel. Dkt. 11.

6

Therefore, it is requested that the Court enter an order appointing the Federal

7

Public Defender to represent Mr. Blackmon based on Mr. Blackmon’s previously filed

8

motion for appointment of counsel, the financial information he has previously

9

provided to the Court, and the FPD’s willingness to accept the appointment.

10

DATED this 12th day of December, 2016.

11

Respectfully submitted,

12

s/ Michael Filipovic
Federal Public Defender

13
14
15
16
17
18
19
20
21
22
23
24
25
26
NOTICE THAT THE FEDERAL
PUBLIC DEFENDER WILL ACCEPT
APPOINTMENT AS COUNSEL
(John Patrick Blackmon, C16-1592-RSL-JPD) - 2

FEDERAL PUBLIC DEFENDER
1601 Fifth Avenue, Suite 700
Seattle, Washington 98101
(206) 553-1100

Case 2:16-cv-01592-RSL Document 15 Filed 12/12/16 Page 3 of 3

1
2

CERTIFICATE OF SERVICE
I certify that on December 12, 2016,1 electronically filed the foregoing

3

document with the Clerk of the Court using the CM/ECF system, which will send

4

notification of filing to all registered parties. I further certify I mailed a copy of this

5

notice to John Blackmon.

6

s/ Suzie Strait
Paralegal

7

8
9
10
11
12
13
14
15
16
17
18
19
20

21
22
23
24

25
26
NOTICE THAT THE FEDERAL
PUBLIC DEFENDER WILL ACCEPT
APPOINTMENT AS COUNSEL
(John Patrick Blackmon, C16-1592-RSL-JPD) - 3

FEDERAL PUBLIC DEFENDER
1601 Fifth Avenue, Suite 700
Seattle, Washington 98101
(206) 553-1100

Additional material
from this filing is
available in the
Clerk's Office.

